OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/NIGERIA’S 

MICROFINANCE ACTIVITIES 

AUDIT REPORT NO. 7-620-08-002-P
NOVEMBER 5, 2007




DAKAR, SENEGAL

Office of Inspector General


November 5, 2007

MEMORANDUM

TO:       	          USAID/Nigeria Mission Director, Sharon Cromer

FROM: 	              Regional Inspector General/Dakar, Nancy Toolan /s/

SUBJECT:	            Audit of USAID/Nigeria’s Microfinance Activities
                     (Audit Report No. 7-620-08-002-P)


This memorandum is our final report on the subject audit. In finalizing this report, we
considered management’s comments on our draft report and included them in Appendix II.

This report contains three recommendations with which you concurred in your response to the
draft report. Final action has been taken on Recommendation No. 2 and no further action is
required of the Mission. Based on your proposed actions in response to Recommendations
Nos. 1 and 3, management decisions have been reached but these two recommendations will
remain open until the planned actions are completed by the Mission. Please coordinate final
actions on these recommendations with USAID’s Audit Performance and Compliance Division
within the Management Bureau’s Office of the Chief Financial Officer (M/CFO/APC).

I appreciate the cooperation and courtesies extended to the members of our audit team during
this audit.




U.S. Agency for International Development
Ngor Diarama, Petit Ngor, BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objectives ................................................................................................................ 4


Audit Findings ................................................................................................................. 5 


Did USAID/Nigeria implement its microfinance 

activities efficiently? .......................................................................................................... 5 


     ADS 219 Requirements Were Not 

     Followed...................................................................................................................... 6


Did USAID/Nigeria’s microfinance activities 

achieve planned results? .................................................................................................. 8 


     Data Submitted to Washington Needs to 

     be Verified ................................................................................................................. 10 


Evaluation of Management Comments ....................................................................... 13 


Appendix I – Scope and Methodology ........................................................................ 15 


Appendix II – Management Comments ....................................................................... 17 


Appendix III – Financial and Project Indicators ......................................................... 19 

SUMMARY OF RESULTS

The Regional Inspector General/Dakar conducted this audit as part of a worldwide audit
executed by the Office of Inspector General. The objectives of the audit were to
determine whether (1) USAID/Nigeria implemented its microfinance activities efficiently,
and (2) USAID/Nigeria’s microfinance activities achieved planned results (see page 4).

For the first objective, we concluded that for the most part, USAID/Nigeria implemented
its microfinance activities in the Promoting Improved Sustainable Microfinance Services
(PRISMS) program efficiently. The Mission complied with the requirements regarding
efficiency and cost-effectiveness in the Microenterprise Results and Accountability Act of
2004. We found increased efficiency in the operations of the primary microfinance
institution (MFI) receiving technical assistance from PRISMS based on the results of four
financial indicators used to determine efficiency and productivity. Additionally, compared
to industry benchmarks, results for three of the four indicators indicated efficient
operations, although one indicator (operating expense ratio) still remained higher than
the industry standard (see pages 5-6). Although the Mission monitored the program to
ensure the program’s achievement of its intended results it did not ensure that eligibility
conditions were met before agreements were signed with microfinance institutions
according to USAID guidance pertaining to microenterprise development programs. The
Mission’s interpretation of the Automated Directives System (ADS) language led it to
believe that the requirements were not applicable to the Mission or that the partner was
responsible for ensuring that such conditions were met (see pages 6-8).

For the second objective, we concluded that USAID/Nigeria’s microfinance activities
achieved planned results. The microfinance activities implemented through PRISMS
met or exceeded the targets for its 11 project indicators for fiscal year (FY) 2006 as well
as for six of seven financial indicators used to determine sustainability, profitability, and
portfolio quality In addition, PRISMS made a positive impact on the MFIs, microfinance
beneficiaries, and the microfinance policy environment in Nigeria (see pages 8-10).
However, USAID/Nigeria did not verify the microfinance data for FY 2006 activities
included in its annual reporting to USAID/Washington, as required by its Mission Order.
As a result, the Mission underreported on the Value of Loans indicator by $13.2 million
(see pages 10-12).

This report includes three recommendations to assist USAID/Nigeria in managing its
microfinance activities and annual reporting. First, we recommend that USAID/Nigeria
develop guidance delineating the Mission’s and partners’ role and responsibilities in
complying with Automated Directives System (ADS) 219 in its microenterprise programs
(see page 8). Second, we recommend that USAID/Nigeria correct the results of its
Value of Loans indicator and the related components reported in its annual reporting for
FY 2006 activities and resubmit the results to USAID/Washington (see page 12). Third,
we recommend that USAID/Nigeria expand the applicability of its Mission Order to expand
beyond the normal annual reporting process to include data reported to USAID/Washington
for formal program performance assessments and external reports (see page 12).

USAID/Nigeria concurred with the recommendations and based on actions taken by the
Mission, Recommendation No. 2 has been closed and no further action is required.
Management decisions have been reached for Recommendations Nos. 1 and 3 based


                                                                                           1
on proposed actions. These recommendations will remain open until final actions are
taken by USAID/Nigeria and coordinated with USAID’s Audit Performance and
Compliance Division within the Management Bureau’s Office of the Chief Financial
Officer (M/CFO/APC) (see page 13).




                                                                                 2
BACKGROUND

In many countries, microenterprises—small, informally organized commercial operations
owned and operated mostly by the poor—constitute the majority of businesses. They
account for a substantial share of total employment and gross domestic product, and
they contribute significantly to poverty reduction.

Over the past three decades, support for microfinance development has been an
important feature of U.S. foreign assistance. As the leading bilateral donor for
microfinance development, USAID has advanced its vision of strengthening economic
opportunities for poorer households to enable families to build assets, cope with the risks
and vulnerability that accompany poverty, plan for better futures for their children, and
contribute to key sectors of local, national and regional economies. As the predominant
source of income and employment for hundreds of millions of people worldwide, the
microfinance sector’s influence on individuals, households, and national economies is
clear and profound.

USAID's microenterprise development strategy seeks to address two pressing
challenges:

    •	 To link microenterprises to greater opportunities for growth, which includes
       integrating them on more favorable terms into the formal economies of their
       countries and connecting them to expanded information and resource networks.

    •	 To bring the benefits of microfinance1 and business development services to
       poorer people, ensuring that the positive impacts of microenterprise development
       programs reach those most in need.

In 2004, USAID/Nigeria awarded a $5.09 million contract to Chemonics for a 4-year
microfinance development program called Promoting Improved Sustainable
Microfinance Services (PRISMS). The activities under this contract directly supported
the agriculture and economic growth objective under the Mission’s Strategic Objective,
Improved Livelihoods in Selected Areas, with the purpose of increasing access to critical
financial services for micro and small enterprises in Nigeria. PRISMS worked directly
with microfinance institutions (MFIs) and other institutions providing financial services to
micro, small, and medium enterprises (MSMEs) to help them engage in best practices in
productive and sustainable lending, savings mobilization, and other financial services.
The intended beneficiaries were microfinance and other financial institutions and the
entrepreneurs and enterprises they serve, with a particular focus on microenterprises
and women.

In August 2006, PRISMS was merged with another program being implemented by
Chemonics, called Maximizing Agricultural Revenue and Key Enterprises in Targeted
Sites (MARKETS). MARKETS, which is under the same Strategic Objective as
PRISMS, focuses on improving rural livelihood by expanding economic opportunities in
1
 Microfinance represents one component of microenterprise activities and refers to the provision of financial
services adapted to the needs of low-income people, especially the provision of small loans, the acceptance
of small savings deposits and simple payments services needed by microentrepreneurs and other poor
people.


                                                                                                           3
the agricultural subsector, especially for women and youth. Programmatically, the two
projects complement each other: MARKETS generates the demand for financial services
and PRISMS promotes access to the supply of financial services. To support the new
microfinance activities under MARKETS, $1.3 million was de-obligated from the PRISMS
contract and transferred to the MARKETS program.

AUDIT OBJECTIVES
This audit was conducted as part of a worldwide audit of USAID’s microfinance activities
included in the Office of Inspector General’s fiscal year 2007 annual audit plan. The
audit was conducted to answer the following questions:

       Did USAID/Nigeria implement its microfinance activities efficiently?

       Did USAID/Nigeria’s microfinance activities achieve planned results?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                      4
AUDIT FINDINGS

Did USAID/Nigeria implement its microfinance activities
efficiently?
For the most part, USAID/Nigeria implemented its microfinance activities in the
Promoting Improved Sustainable Microfinance Services (PRISMS) program efficiently.
The Mission complied with the requirements regarding efficiency and cost effectiveness
in the Microenterprise Results and Accountability Act of 2004. We found increased
efficiency in the operations of the primary microfinance institution (MFI) receiving
technical assistance from PRISMS. Moreover, the Mission appropriately monitored the
program to ensure that the implementing partner, Chemonics, performed its duties in
accordance with the contract provisions, and the Mission took remedial action, when
necessary, to ensure that the program achieved its intended results. However,
USAID/Nigeria did not ensure that MFI eligibility conditions were met as referenced in
Automated Directives Systems (ADS) 219, which includes USAID guidance pertaining to
microenterprise development programs. Because of the wording of the guidance,
USAID/Nigeria did not think the requirements were applicable to the Mission and instead
thought that the partner was responsible for ensuring that requirements were met.

Although the PRISMS contract was awarded prior to the enactment of the
Microenterprise Results and Accountability Act of 2004, USAID/Nigeria complied with
the requirements of Section 3(b)(2)(C) pertaining to efficiency and cost-effectiveness. In
evaluating proposals for awarding the contract, USAID/Nigeria considered the
percentage of funds the bidders intended to expend on administrative costs, and Mission
gave preference to proposals that were the most technically competitive and had a
reasonable allocation to overhead and administrative costs, as was required by the Act.
In addition, once the contract was awarded, the Mission closely monitored the program
to ensure that Chemonics kept administrative costs as low as practicable to ensure that
the maximum amount of funds were used (1) to directly assist microfinance and
microenterprise clients, (2) to establish sustainable microfinance and microenterprise
institutions, or (3) to advance the microenterprise development field.

Furthermore, the results of four financial indicators used to determine efficiency and
productivity showed that the operational performance of the MFI, Lift Above Poverty
Organization (LAPO), had improved. Efficiency and productivity indictors reflect how
well an MFI uses its resources, particularly its assets and its personnel. LAPO’s results
related to its operating expense ratio, the number of borrowers per loan officer, the write-
off ratio and the active clients per staff member showed a positive trend of increasing
efficiency in its operations from 2005 to 2006. Furthermore, when compared with
industry benchmarks, three of the four indicators indicated that LAPO was generally
operating efficiently. However, despite a slight improvement from 2005 to 2006, LAPO’s
operating expense ratio of 38 percent remained significantly higher than the industry
benchmark of 25 percent. See Table A-1 in Appendix III for the financial indicator
results.

Additionally, USAID/Nigeria was responsible for ensuring that Chemonics performed in
accordance with the contract provisions and for monitoring the program’s progress. To



                                                                                          5
fulfill these responsibilities, in addition to the cognizant technical officer (CTO) monitoring
PRISMS, the Program Office conducted quarterly portfolio reviews of the program. A
portfolio review conducted in August 2005 indicated that PRISMS was not achieving its
intended results, and in November 2005, USAID/Nigeria issued a “Notice of
Performance Delinquency and Required Remedy” to Chemonics.                             In the
correspondence, the Mission expressed its concerns with Chemonics’ failure to deliver
results and required Chemonics to develop and submit a Recovery Plan and present its
proposed execution. Once the Mission approved the Recovery Plan, the work plan and
performance monitoring plan were modified accordingly. In the meantime, PRISMS
began to achieve results, and although USAID/Nigeria acknowledged that the
subsequent achievement could not be attributed solely to the Recovery Plan, the
Mission took appropriate measures to ensure the achievement of intended results in the
program.

Although USAID/Nigeria monitored PRISMS to ensure that Chemonics performed in
accordance with the contract provisions and took steps to ensure that the program
achieved its intended results, the Mission did not ensure that MFI eligibility requirements
were met before agreements were signed with the MFIs.

ADS 219 Requirements
Were Not Followed

  Summary: ADS 219 describes certain conditions that must be met before an
  agreement is signed with an MFI for microfinance activities. USAID/Nigeria did not
  ensure that the MFI eligibility requirements were met before agreements were
  signed with the MFIs. This occurred because the Mission’s interpretation of the
  ADS language led it to believe that the requirements were not applicable to the
  Mission or that the partner was responsible for ensuring that conditions were met.
  However, it is ultimately the responsibility for the Mission to safeguard the use of
  U.S. government funds. If the Mission does not fulfill this responsibility, it cannot be
  fully assured of meeting the intent of the ADS in terms of managing and
  implementing microfinance programs.

USAID’s ADS 219 establishes policy directives and required procedures for USAID
program efforts in the area of microenterprise development. For example, ADS 219.3.5,
Eligibility Conditions for USAID Assistance to Microfinance Institutions (MFIs) requires
the following conditions to be met among others before an agreement is signed with an
MFI:

   •	   MFI willingness and ability to set full-cost covering interest rates and fees.
   •	   MFI commitment to attain full financial sustainability.
   •	   MFI plan for attaining financial sustainability.
   •	   MFI control over loan delinquency (the MFI’s delinquency rate is below 10
        percent and its loan loss rate is below 5 percent).

As part of our audit, we intended to determine the extent to which USAID/Nigeria
complied with ADS 219, specifically the requirements pertaining to MFI eligibility
conditions. We found that the Mission did not follow the ADS instructions related to
eligibility requirements for MFIs because it interpreted the guidance too literally which led


                                                                                             6
it to believe that some sections were not applicable to its program, or that compliance
with those sections was the responsibility of the partner, not the Mission.

For example the Annex to ADS 219’s internal mandatory reference, ‘Microenterprise
Development,’ states that “USAID agreements involving grant or loan assistance or loan
guarantees to any institution providing financial services to microenterprises…”
(emphasis supplied). This Annex provides important guidance on the reporting and
analysis of financial, operational, and analytic performance indicators. The Mission
interpreted this guidance as not directly applicable to it because PRISMS provided only
technical assistance to the MFIs, not direct monetary assistance in the form of grants,
loan assistance, or loan guarantees.

Another example pertains to the requirement of MFIs’ full financial sustainability
contained in ADS 219.3.5.2, which includes the statement “Before the Mission signs an
agreement to provide assistance to any microfinance institution…” (emphasis supplied).
USAID/Nigeria staff literally interpreted this guidance as being applicable only to
situations in which USAID has a direct agreement with MFIs, which was not the case
with PRISMS. Although USAID/Nigeria had a contract with Chemonics for the PRISMS
project, the memorandums of understanding (MOUs) with the MFIs were signed by
Chemonics, not the Mission. The Mission did review the MOUs prior to the signing as
part of its general oversight but not with the intent to ensure compliance with specific
sections of the ADS. In fact, Mission staff indicated that they had intended for the
partner to ensure that the eligibility requirements were met and they trusted in the
partner’s expertise.

Although the Mission did not comply with the ADS and ensure that the eligibility
requirements were met, PRISMS staff did assess the operations of two MFIs—LAPO
and DEC (Development Exchange Center)—before signing their MOUs.                         The
assessments involved reviewing the MFIs’ organizational structure and management,
internal controls, products and services, loan portfolio and savings information,
objectives and target clients, and financial information. These assessments covered
several of the eligibility conditions cited in the ADS, but they did not fully address all of
the eligibility conditions of ADS 219.3.5. As such, not all conditions were met before the
MOUs were signed by PRISMS and the MFIs. However, we found that both LAPO and
DEC met all of the eligibility conditions at the time of our audit fieldwork. For example:

•	 PRISMS reviewed the MFIs’ interest rates during the assessments, but did not
   document whether the interest rates were full-cost covering. During our site visits,
   however, we discussed with both LAPO and DEC management their willingness and
   ability to set full-cost covering interest rates and fees, and we found that both MFIs
   set high enough interest rates to cover their costs. LAPO charges an interest rate of
   36 percent on its loans and DEC charges 30 percent.

•	 PRISMS did not obtain written commitments to attain full financial sustainability from
   the MFIs. During our site visits, however, LAPO management said that it was
   already financially sustainable. This was confirmed by calculating its adjusted return
   on operations, the core measure used by USAID to assess the financial sustainability
   of an MFI. LAPO’s adjusted return on operations was greater than one, which
   implies full financial sustainability. DEC management expressed their desire to
   achieve full financial sustainability, and has developed a strategy to attain this goal.



                                                                                           7
•	 PRISMS did not obtain the MFIs’ plans for attaining financial sustainability. LAPO is
   already financially sustainable, however, and DEC included its strategy to attain
   financial sustainability in its business plan, which was developed as part of the
   technical assistance provided by PRISMS. DEC’s Business Plan covers the years
   2006-10, and details DEC’s intended path to sustainability by 2010, at which point it
   will complete its transformation into a microfinance bank. This meets USAID’s
   requirements that an MFI must attain full financial sustainability within no more than
   7 years of the initial provision of USAID assistance.

•	 PRISMS reviewed loan delinquency rates during the assessments, but only one MFI
   met this eligibility condition. For example, LAPO’s loan delinquency rate was 1
   percent at the time of the assessment, but DEC’s loan delinquency rate was 38
   percent, substantially exceeding the 10 percent eligibility threshold. At the time of
   our audit, however, we found DEC’s loan delinquency rate was approximately 10
   percent. The decrease was attributable to the technical assistance provided by
   PRISMS. The MOU with DEC was designed to help DEC with its financial
   restructuring to better manage its at-risk portfolio and reduce its delinquency rate.
   The assessments indicated that PRISMS reviewed the amount of loans written off,
   but not the loan loss rates. We found that both MFIs had loan loss rates below the 5
   percent threshold.

The Mission is fortunate that the partner performed some assessments of the MFIS and
by the time of our audit, both MFIs met the eligibility conditions set out by the ADS.
However, it is ultimately the responsibility of the Mission to safeguard U.S. Government
funds and to ensure its own and its partners’ compliance with ADS requirements.
Failure to do this means the Mission cannot be fully assured of meeting the intent of the
ADS in terms of managing and implementing microfinance programs. Therefore, to
ensure that USAID/Nigeria fulfills its correct and appropriate responsibilities, the Office of
Inspector General is making the following recommendation:

   Recommendation No. 1:           We recommend that USAID/Nigeria develop
   procedures and guidance delineating the Mission’s and partners’ roles and
   responsibilities in ensuring compliance with the requirements in the Automated
   Directives System 219 for its microenterprise programs.

Did USAID/Nigeria’s microfinance activities achieve planned
results?
Our review of reported results and project activities indicates that USAID/Nigeria’s
microfinance activities achieved planned results.          The microfinance activities
implemented through the PRISMS program met or exceeded the targets for almost all of
its project indicators for FY 2006. In addition, the program made a positive impact on
the MFIs with which it worked, their beneficiaries, and the microfinance policy
environment in Nigeria.

PRISMS exceeded the targets for 9 of its 11 indicators in its annual workplan and met
the targets for the remaining 2 indicators. For example, 13,819 loans were disbursed to
MSMEs exceeding the target of 9,000 loans. The target related to the overall value of
loans disbursed was exceeded as well, with 241 million naira disbursed through loans
compared with the target of 90 million naira. In addition, three policies were approved or


                                                                                            8
revised by the Central Bank of Nigeria (CBN) to support MSME finance, exceeding the
planned target of having two policies adopted. See Table A-2 in Appendix III for more
details on the planned and actual results achieved through this project in fiscal year
2006. In addition to the 11 project indicators in the PRISMS workplan, we reviewed
seven financial indicators used to determine sustainability, profitability, and portfolio
quality for LAPO. For six of the seven, the actual results in FY 2006 met or exceeded
the targets, indicating that LAPO is achieving its planned results. See Table A-3 in
Appendix III for these targets and results.

Other benefits were realized through the PRISMS program in addition to the
achievement of planned results. For example, to counter the local commercial banks’
skepticism about lending to MFIs, PRISMS helped the MFIs develop marketable
business plans and linked them to specialized international microfinance investment and
lending funds to secure hard currency loans. These hard currency loans were then
deposited into local commercial banks to guarantee wholesale loans in naira, the local
currency. In FY 2006, about 800,000 euros in hard currency loans from various
international organizations were used to guarantee commercial bank loans of
approximately 125 million naira.

The security of the wholesale loans provided MSMEs more access to financing, which
translated to an increase in beneficiaries’ income and improvement in their livelihood.
We met with several beneficiaries who conveyed their satisfaction with the MFIs. Some
expressed a desire to see the loan amounts increased from the current amounts, which
would enable them to further increase their business capacities and further improve their
lifestyle. During our site visit to one of LAPO’s branches in Benin City, an area manager
stated that LAPO had graduated some beneficiaries. These graduates no longer
needed to borrow to operate and grow their businesses, but rather they were able to use
their savings.




Photograph of one of LAPO’s lending groups, Oromiyan Union, at its meeting location in Benin City (left)
Photograph of one of DEC’s lending groups, Soyya, at its meeting location in Bauchi (right). LAPO and DEC
lend only to groups as a form of social collateral. Credit officers meet with the groups weekly to collect the
weekly loan payments and mandatory savings deposits. Both groups indicated that the loans provided by
the MFIs have significantly enhanced the ability to grow their businesses.
Source: Photos were taken in Benin City and Bauchi by a Regional Inspector General/Dakar auditor in May
2007.

The program affected the financial sector policy environment in Nigeria. Before PRISMS
no governmental policy regulated MFIs. PRISMS helped the CBN formulate the


                                                                                                            9
Microfinance Banking Policy. The policy, which was launched in December 2005,
requires MFIs to meet certain standards and convert to microfinance banks. PRISMS
introduced risk-based supervision to the CBN as a method to monitor and supervise the
microfinance banks more effectively and efficiently. The CBN is now converting to risk-
based supervision throughout its banking system.

We also found that USAID/Nigeria effectively monitored the PRISMS program. The
CTO was actively involved in and had thorough knowledge of the program activities. For
example, the CTO maintained ongoing communication with Chemonics through weekly
meetings, telephone conversations, and e-mail correspondence. Additionally, the CTO
reviewed the program’s quarterly progress reports, correspondence between Chemonics
and the MFIs and commercial banks, and monthly invoices submitted by Chemonics.
The CTO maintained telephone contact with the MFIs. Furthermore, USAID/Nigeria’s
monitoring and evaluation (M&E) contractor performed data quality assessments (DQAs)
on the program’s microfinance data included in the Mission’s annual reporting for FY
2006 activities. Chemonics played an active role in monitoring the activities by
maintaining frequent contact with the MFIs. Chemonics also performed in-depth reviews
of quarterly reports submitted by the MFIs and made site visits to the field on a regular
basis to verify data, review MFI operations, and observe activities.

We reviewed source documentation maintained by Chemonics supporting the results of
the 11 project indicators reported in its final report to USAID/Nigeria, and found no
discrepancies. We reviewed documentation supporting the FY 2006 data entered into
the Microenterprise Results Reporting System2 at the Mission and partner levels, and
also found it to be accurate. We did, however, find errors in USAID/Nigeria’s annual
reporting for FY 2006 activities, which significantly misrepresented the Mission’s
accomplishments.

Data Submitted to Washington
Needs to be Verified

    Summary: USAID/Nigeria submitted erroneous data to Washington regarding the
    results of a key indicator which substantially misrepresented the value of loans
    disbursed through the program. This occurred because the Mission did not verify
    and cross-check the microfinance data reported to USAID/Washington in its annual
    reporting for FY 2006 activities, as required by its Mission Order. The Mission
    Order was not followed due to an oversight resulting from the different reporting
    process used and the lack of specific directions to verify the data before
    submission.     Reporting of inaccurate results can lead to inappropriate
    programmatic decisions.

As discussed, USAID/Nigeria’s M&E contractor conducted DQAs on the indicator data
reported in the annual report table. Once the DQAs were complete, the M&E contractor
gave the Mission separate data sheets for each indicator, which showed the allocation
by partner and the grand total of the indicator result. The M&E contractor also provided
the Mission with the final results in the form of a data table that listed each indicator and

2
  The Microenterprise Results Reporting (MRR) is USAID’s official system for tracking its microenterprise
investments.


                                                                                                      10
its respective total result.

On three data sheets prepared by the M&E contractor, the last three digits were dropped
when the figures provided were in the billions of naira. For example, the data sheet
supporting the Total Value of Loans by USAID-assisted institutions showed a total of
1,903,709 naira, dropping the last three digits of the actual total of 1,903,709,980 naira.
Compounding on this error is the fact that the Mission reported the amount as US dollars
(US$), even though the data sheets identified the amounts as naira. As a result,
USAID/Nigeria reported the value of its loans as US$1,903,709, rather than the correct
amount of US$15,108,8093, the equivalent of the 1,903,709,980 naira. Therefore,
because the Mission did not verify the data before submitting it to USAID/Washington as
required in its Mission Order, the Mission underreported on this indicator by more than
US$13.2 million. We found similar errors on the data sheets for the three components of
this indicator, with incorrect information reported to USAID/Washington:

•	 The data sheet for the value of loans to women showed a total of 1,814,398 Naira
   and was reported by the Mission as such in U. S. dollars. The correct amount
   however, was 1,814,398,266 naira, the equivalent of US$14,399,986. The Mission
   underreported on this indicator by US$12.6 million.

•	 The data sheet for the value of loans to other disadvantaged groups showed a total
   of 34,501,714 naira, and was reported by the Mission as such in U. S. dollars. The
   correct amount is US$273,823 USD. The Mission overreported on this indicator by
   US$34.2 million.

•	 The data sheet for the value of micro loans showed a total of 1,902,469 naira, and
   was reported by the Mission as such in U. S. dollars. The correct amount, however,
   was 1,902,469,980 naira, equivalent to US$15,098,968. The Mission underreported
   these program results by $13.2 million.

USAID/Nigeria’s Mission Order 200-10 details the procedures for preparing the Mission’s
Annual Report. It states that the Program Office is responsible for sending out the
complete annual report guidance to all Strategic Objective (SO) and support Team
Leaders. SO and support Team Leaders will assign an individual to review the narrative
and quantitative information contained in the relevant sections of the annual report and
ascertain whether it matches the source documents, which includes cross-checking all
information in the relevant sections of the annual report against source documents, and
confirming that all quantitative calculations are correct. The individual is then required to
sign a statement listing the indicators or data that have been verified, and the Team
Leader will also sign the statement to confirm that the accuracy of the data has been
verified. The Program Office will then enter data into the annual report application only if
it is accompanied by a verification statement.

With the introduction of the Country Operational Plan4 in the fall of 2006, USAID/Nigeria
was not required to prepare the standard Annual Report as in previous years. In March
2007, USAID/Washington asked the Mission to submit the actual results for FY 2006
activities in the form of a table. The standard narrative section was not required.

3
 An exchange rate of 126 naira to US$1 was used. 

4
 The Country Operational Plan is an integral tool of foreign assistance designed to link funding to activities

and results. 



                                                                                                           11
Although the Program Office sent the draft results table to each of the SO Teams before
submitting the data to Washington, the Program Office did not elaborate or specifically
request verification of the data. Therefore, in light of the different reporting requirements
and the lack of specific directions to verify the data, the SO Teams did not review and
sign off on the data before the Program Office submitted it to Washington.

Data reported to USAID/Washington for formal program assessments or external
reporting requirements should be verified before submission. Although the Mission did
have a Mission Order describing procedures to verify data for the Annual Report, the
Order did not specifically include other reporting mechanisms such as the new Country
Operational Plan.      The reporting errors that did occur caused the impact of
USAID/Nigeria’s microfinance program to be inaccurately reflected. It is important that
reported results be reliable, especially in these times of increased budget scrutiny.
Because performance information is used to influence program decisionmaking and
resource allocation, this incorrect information could be used to make inappropriate
programmatic decisions for future activities. The Office of Inspector General, therefore,
is making the following recommendations:

   Recommendation No. 2: We recommend that USAID/Nigeria correct the results
   of its Value of Loans indicator and the related components reported in its annual
   reporting for fiscal year 2006 activities and resubmit the results to
   USAID/Washington.

   Recommendation No. 3: We recommend that USAID/Nigeria expand the
   applicability of its Mission Order 200-10 beyond the former annual reporting process
   to include data reported to USAID/Washington for formal program performance
   assessments and external reports, and communicate to Mission staff the
   importance of following the procedures in the revised Mission Order.




                                                                                          12
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Nigeria concurred with the findings and the recommendations in the draft audit
report5. Final action has been taken on Recommendation No. 2 and no further action is
required of the Mission related to that recommendation. Management decisions have
been reached on Recommendations No. 1 and 3, which will remain open until final
actions are taken by USAID/Nigeria and coordinated with USAID’s Audit Performance
and Compliance Division within the Management Bureau’s Office of the Chief Financial
Officer (M/CFO/APC). The Mission indicated that these actions will be completed within
the next 6 months or sooner.

Recommendation No. 1 recommends that USAID/Nigeria develop procedures and
guidance delineating the Mission’s and partners’ roles and responsibilities in ensuring
compliance with the requirements in the Automated Directives System (ADS) 219 for its
microenterprise programs. The Mission indicated that it is drafting a Mission Order to
ensure compliance with the ADS regulation that will specify the roles and responsibilities
for current and future microfinance activities. Based on this proposed action, a
management decision has been reached but the recommendation will remain open until
final action is completed by the Mission.

Recommendation No. 2 recommends that USAID/Nigeria correct the results of its Value
of Loans indicator and the related components reported in its annual reporting for fiscal
year 2006 activities and resubmit the results to USAID/Washington. The Mission
submitted documentation showing a ‘screen shot’ of the corrected information in its
reporting data base. Based on this final action, this recommendation is closed.

Recommendation No. 3 recommends that USAID/Nigeria expand the applicability of its
Mission Order 200-10 beyond the former annual reporting process to include data
reported to USAID/Washington for formal program performance assessments and
external reports, and communicate to Mission staff the importance of following the
procedures in the revised Mission Order. The Mission indicated that a revision of the
Mission Order was underway and will stress its importance when disseminated to all
Mission staff. Based on this proposed action, a management decision has been
reached but the recommendation will remain open until final action is completed by the
Mission.

Management’s comments are included in their entirety (without attachments) in
Appendix II.




5
 USAID/Nigeria’s response refers to our preliminary report number 7-620-07-00X-P. However, it
has been assigned a new number reflecting issuance in FY2008 (7-620-08-002-P).


                                                                                          13
(This page intentionally left blank)




                                       14
                                                                                    APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General’s office in Dakar, Senegal conducted this audit in
accordance with generally accepted government auditing standards. This audit is part of
a worldwide audit of USAID’s microfinance activities. The audit was designed to
determine whether (1) USAID/Nigeria implemented its microfinance activities efficiently
and (2) USAID/Nigeria’s microfinance activities achieved planned results.

According to USAID, microenterprise activities are comprised of four major components:
microfinance, enterprise development, financial policy, and microenterprise development
policy. The scope of this audit covers the microfinance component and encompasses
USAID/Nigeria’s fiscal year (FY) 2006 microfinance activities in the Promoting Improved
Sustainable Microfinance Services (PRISMS) program implemented by Chemonics. In
August 2006, PRISMS was merged with another program being implemented by
Chemonics called Maximizing Agricultural Revenue and Key Enterprises in Targeted
Sites (MARKETS). The audit focused on the two microfinance institutions (MFIs) that
were integrated into MARKETS:           Lift Above Poverty Organization (LAPO) and
Development Exchange Center (DEC). We reviewed the results of the 11 project
indicators reported in the PRISMS final program report.6 USAID/Nigeria disbursed
slightly less than $1 million for PRISMS activities conducted in FY 2006.

In planning and performing the audit, we reviewed and assessed the effectiveness of
management control related to the microfinance activities. We identified management
control as the Mission’s annual self–assessment of management control as required by
the Federal Managers’ Financial Integrity Act Report, Mission policies and procedures,
monitoring of activities, accurate and timely recording of transactions and events, and
maintenance of documentation.        The audit involved interviews with USAID/Nigeria,
partner, and MFI staff; reviews of their records; site visits; and interviews with
beneficiaries.

Audit fieldwork was conducted from May 8 through May 25, 2007, at USAID/Nigeria and
the Chemonics/MARKETS office in Abuja. Site visits were conducted in Benin City and
Bauchi at the headquarters office, a branch office, and a beneficiary group meeting
location of the two MFIs.

Methodology
To answer the audit objectives, we obtained an understanding of the microfinance
program by reviewing applicable laws, regulations, guidance, and program documents.
We interviewed Mission, partner, and MFI staff regarding the microfinance activities
being implemented, the achievement of results, their roles and responsibilities for
monitoring of the activities, and data collection and reporting.


6
 The results only include data from LAPO’s activities because PRISMS did not sign the memorandum of
understanding with DEC until July 2006.




                                                                                                15
                                                                             APPENDIX I


To evaluate efficiency, we determined compliance with Section 3(b)(2)(C) of Public Law
108-484: Microenterprise Results and Accountability Act of 2004, USAID’s Automated
Directives System (ADS) 219 – Microenterprise Development, and the provisions of the
PRISMS contract. In addition, we reviewed the trends of the results of four financial
indicators used in the microfinance industry to determine efficiency and productivity of
LAPO.

We identified and selected the results of all 11 project indicators reported in the PRISMS
final program report for in-depth review. We measured whether the selected indicators
had been achieved by comparing the results with the targets. We also determined
achievement by conducting site visits to observe activities first-hand. The following
criteria were used to assist in answering the audit objective:

•	 If at least 90 percent of the selected planned results were achieved, the answer to
   the audit objective will be positive.

•	 If at least 80 percent, but less than 90 percent, of the selected planned results were
   achieved, the answer to the audit objective will be qualified.

•	 If less than 80 percent of the selected planned results were achieved, the answer to
   the audit objective will be negative.

While we have these threshold criteria, we also used auditor judgment to determine the
applicability of the threshold percentages, taking into consideration other factors such as
significance of the various outputs, environmental aspect, and timeliness of funds
distribution.

In assessing achievement, we compared the results to the targets of seven financial
indicators used in the microfinance industry to determine sustainability and profitability
and portfolio quality for LAPO.

We verified the accuracy of the project indicator results by reviewing source
documentation. We verified the accuracy of the data input into the Microenterprise
Results Reporting System by USAID/Nigeria and Chemonics and the results of the two
microfinance indicators reported in USAID/Nigeria’s Annual Report Table. In assessing
data quality, we used a materiality threshold of 5 percent for reporting accuracy.

We judgmentally selected a sample of sites for testing. For each MFI, we visited the
headquarters office, a branch office, and a beneficiary group meeting location. During
site visits, we interviewed MFI staff, reviewed documentation, and reviewed the MFIs’
loan portfolio tracking and reporting systems. We also observed loan disbursement and
collection activities and interviewed beneficiaries.




                                                                                        16
                                                                               APPENDIX II 




MANAGEMENT COMMENTS 




                                                      October 17, 2007

Nancy Toolan
Acting Regional Inspector General/Dakar
Office of Inspector General
Dakar, Senegal
Subject: Audit of USAID/Nigeria’s Microfinance Activities
Dear Ms. Toolan,
USAID/Nigeria appreciates the assistance of RIG/Dakar and concurs with the findings as
noted on the draft audit report, Audit of USAID/Nigeria’s Microfinance Activities
(Audit Report No. 7-620-07-00X-P.)
The following actions have been taken:
Recommendation No. 1:
   “We recommend that USAID/Nigeria develop procedures and guidance
   delineating the Mission’s and partners’ roles and responsibilities in ensuring
   compliance with the requirements in the Automated Directives System 219 for its
   microenterprise programs.”
 The Mission is drafting a Mission Order to ensure compliance of ADS 219 regulations
 that will specify roles and responsibilities for current and future microfinance activities.
Recommendation No. 2:

   “We recommend that USAID/Nigeria correct the results of its Value of Loans
   indicator and the related components reported in its annual reporting for fiscal
   year 2006 activities and resubmit the results to USAID/Washington.”

 The PART database correction has been completed. Attached are the “before” and
 “after” screen shots of the data base which reflect the change. We request the closure
 of this recommendation.




                                                                                          17

                                                                            APPENDIX II 



Recommendation No. 3:

       “We recommend that USAID/Nigeria expand the applicability of its Mission
   Order 200-10 beyond the former annual reporting process to include data reported
   to USAID/Washington for formal program performance assessments and external
   reports, and communicate to Mission staff the importance of following the
   procedures in the revised Mission Order.”

To close this recommendation, the Mission is revising the current Mission Order to
include all other data reported to USAID/Washington. The Mission will disseminate the
revised Mission Order to all Mission staff to ensure compliance and stress its importance.

USAID/Nigeria will close the recommendations #1 and #3 within the next six months or
sooner. As documentation is available, it will be forwarded to RIG for review and
confirmation of closure.

USAID/Nigeria wishes to thank the auditors and appreciates their assistance.

                                     Sincerely,


                                     Sharon L. Cromer/s/
                                     Mission Director




                                                                                       18
                                                                                          APPENDIX III



FINANCIAL AND PROJECT
INDICATORS
Table A-1 – Efficiency and Productivity Financial Indicators

                                                                           Positive Trend
                 Indicator                   2005             2006           Indication           Benchmark
    Operating Expense Ratio                  40%              38%            Downward                25%
    Borrowers per Loan Officer                293              370             Upward                 220
    Write-off Ratio                          0.1%             0.0%           Downward                0.4%
    Active Clients per Staff Member           149              168             Upward                 148
Note: Industry benchmarks were extracted from Benchmarking African Microfinance 2005, a report from the
Microfinance Information eXchange, Inc

Table A-2 – Project Indicators

                                                                         2006            2006
                               Indicator                                Target          Actual         Achieveda
    Value of loans disbursed to MSMEsb including repeat loans                                            Yes -
    (in millions of Nigerian naira)                                      90.0           240.6          exceeded
    Number of loans disbursed to MSMEs including repeat                                                  Yes -
    loans                                                               9,000          13,819          exceeded
    Value of wholesale loans to NBFIsc and retail loans to                                               Yes-
    MSMEs disbursed (in millions of Nigerian naira)                       90            179.1          exceeded
    Number of wholesale loans to NBFIs and retail loans to
    MSMEs disbursed (in millions of Nigerian naira)                        3               3             Yes
    Number of new/existing financial products/guarantees                                                 Yes -
    introduced                                                             2               3           exceeded
    Value of retail loans to MSMEs by NBFIs including repeat                                             Yes -
    loans (in millions of Nigerian naira)                                 90            240.6          exceeded
    Number of retail loans to MSMEs by NBFIS including repeat                                            Yes -
    loans                                                               9,000          13,819          exceeded
                                                                                                         Yes -
    Value of retail loans made to new clients by NBFIs                 138,524         491,712         exceeded
                                                                                                         Yes -
    Number of new clients served by NBFIs                               6,973          25,202          exceeded
    Number of new supervisory or planning tools/techniques
    introduced                                                             1               1             Yes
    Number of policies approved/revised to support MSME                                                  Yes -
    finance                                                                2               3           exceeded
Notes: 

a
  We considered an indicator achieved when the actual results were 90 percent or more of the target

b
    Micro, small and medium enterprises (MSME) 

c
    Non-bank financial institution (NBFI) 





                                                                                                         19
                                                                                           APPENDIX III


Table A-3 – Sustainability, Profitability, and Portfolio Quality Financial Indicators

                                                                         2006            2006
                             Indicator                                  Target          Actual          Achieveda
    Active Portfolio                                                  $8,629,976      $8,053,851          Yes
    Active Clients                                                      80,878          83,547            Yes
    Write-off Ratio                                                       0%              0%              Yes
    Operational Self-Sufficiency Ratio                                  140%            137%              Yes
    Return on Assets                                                      8%             11%               No
    Portfolio-at-Risk Ratio                                               0%              0%              Yes
    Average Outstanding Loan Size                                        $104             $96             Yes
Notes: 

a
  We considered an indicator achieved when the actual results were 90 percent or more of the target 

b
    Micro, small and medium enterprises (MSME) 

c
    Non-bank financial institution (NBFI) 





                                                                                                          20

U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
